Q@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site

No. 19-123

SHARONELL FULTON, ET AL.,
Petitioners,
Vv.
CITY OF PHILADELPHIA, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE OFFICE OF
THE COOK COUNTY PUBLIC GUARDIAN AS AMICUS CURIAE IN SUPPORT OF
RESPONDENTS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 7446 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Nebraska Ch
RENEE J. GOSS 9 ( dee dra— A.
‘My Comm. Exp. September 5, 2023. .

Notary Public Affiant

E-Mail Address:
contact@cocklelegalbriefs.com

www.cocklelegalbriefs.com

39967
